No.

t

e Court of tOe Unita iptate5

DARIUS WAYNE HAWS, PETITIONER,
V.
STATE OF IDAHO

On Petition for a Writ of Certiorari
to the Supreme Court of Idaho
PETITION FOR A WRIT OF CERTIORARI

As required by Supreme Court Rule 29.5, I certify that on February 4, 2021, I
caused to be served by FedEx overnight shipping three copies of the within Petition
for a Writ of Certiorari and Appendix to the same in the above-captioned matter
upon:
Kenneth K. Jorgensen
Deputy Attorney General
Idaho Office of the Attorney General
700 W. Jefferson Street, Suite 210
Boise, Idaho 83702
(208) 334-2400
ecf@ag.idaho.gov
Attorney for Respondent
I further certify that on February 4, 2021, I transmitted to the above-named
attorney for respondent an electronic version of the within Petition for a Writ of
Certiorari and Appendix to the same via an email sent to ecf@ag.idaho.gov.
I further certify that on February 4, 2021, I caused to be sent to this Court
one copy of the within Petition for a Writ of Certiorari and Appendix to the same by
FedEx overnight shipping. Also on February 4, 2021, I caused to be submitted to
the Court's electronic filing system an electronic copy of the within Petition for a
Writ of Certiorari and Appendix to the same.
All parties required to be served have been served.
1

I declare under penalty of perjury that the foregoing is true and correct.
Executed on February 4, 2021.

Joshua S. Johnson
Counsel for Petitioner

